<html>
<title> - PENDING PUBLIC LANDS, FORESTS, AND MINING LEGISLATION</title>
<body><pre>[Senate Hearing 114-380]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-380

         PENDING PUBLIC LANDS, FORESTS, AND MINING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON PUBLIC LANDS, FORESTS, AND MINING

                                OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

        S. 160/H.R. 373                                     S. 814
 
        S. 365                                              S. 815
 
        S. 472                                              S. 1240
 
        S. 583                                                                                 
                               __________

                              
                              MAY 21, 2015
                              
                              
                              
                              
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          


                       Printed for the use of the
               Committee on Energy and Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
         
         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
95-279 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>          
         
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

           Subcommittee on Public Lands, Forests, and Mining

                        JOHN BARRASSO, Chairman
SHELLEY MOORE CAPITO                 RON WYDEN
JAMES E. RISCH                       DEBBIE STABENOW
MIKE LEE                             AL FRANKEN
STEVE DAINES                         JOE MANCHIN III
BILL CASSIDY                         MARTIN HEINRICH
CORY GARDNER                         MAZIE K. HIRONO
JOHN HOEVEN                          ELIZABETH WARREN
JEFF FLAKE
LAMAR ALEXANDER
                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Natural Resources Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Barrasso, Hon. John, Subcommittee Chairman and a U.S. Senator 
  from Wyoming...................................................     1
Wyden, Hon. Ron, Subcommittee Ranking Member and a U.S. Senator 
  from Oregon....................................................     2
Risch, Hon. James E., U.S. Senator from Idaho....................   107
Heinrich, Hon. Martin, U.S. Senator from New Mexico..............   108
Heller, Hon. Dean, U.S. Senator from Nevada......................   108
Lee, Hon. Mike, U.S. Senator from Utah...........................   178

                               WITNESSES

Weldon, Leslie, Deputy Chief, National Forest System, Forest 
  Service, U.S. Department of Agriculture........................   111
Murphy, Timothy, Acting Assistant Director, National Conservation 
  Lands & Community Partnerships, Bureau of Land Management, U.S. 
  Department of the Interior.....................................   121
Johnson, Rick, Executive Director, Idaho Conservation League.....   137
Stevenson, Brett, Board of Directors, Wood River Bicycle 
  Coalition......................................................   156

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Barrasso, Hon. John:
    Opening Statement............................................     1
Board of County Commissioners, Douglas County, Nevada:
    Statement for the Record.....................................   201
Catlin, Dr. James:
    Statement for the Record.....................................   232
Confederated Tribes of the Coos, Lower Umpqua, and Siuslaw 
  Indians:
    Statement for the Record.....................................     4
Garfield County (Utah):
    Letter for the Record........................................   248
Hatch, Hon. Orrin:
    Statement for the Record.....................................   250
Hedden, Willard:
    Statement for the Record.....................................   253
Heinrich, Hon. Martin:
    Opening Statement............................................   108
Heller, Hon. Dean:
    Opening Statement............................................   108
Idaho Recreation Council:
    Statement for the Record.....................................   260
Johnson, Rick:
    Opening Statement............................................   137
    Written Testimony............................................   139
Kane County (Utah) Board of Commissioners:
    Letter for the Record........................................   262
King Klein, Carole:
    Statement for the Record.....................................   264
Lee, Hon. Mike:
    Opening Statement............................................   178
McKee, Norman:
    Letter for the Record........................................   265
Murphy, Timothy:
    Opening Statement............................................   121
    Written Testimony............................................   123
    Responses to Questions for the Record........................   199
PeopleForBikes:
    Statement for the Record.....................................   267
(The) Pew Charitable Trusts:
    Statement for the Record.....................................   269
Public Lands Council, et al:
    Letter for the Record........................................   180
Risch, Hon. James E.:
    Opening Statement............................................   107
(The) Sawtooth Society:
    Statement for the Record.....................................   272
Sorenson, Craig and Ramoma:
    Letter for the Record........................................   275
Stevenson, Brett:
    Opening Statement............................................   156
    Written Testimony............................................   158
Trudeau, Mimi:
    Letter for the Record........................................   278
U.S. Department of the Interior:
    Statement for the Record regarding S. 160/H.R. 373...........   280
Utah Cattlemen's Association:
    Statement for the Record.....................................   182
Utah Farm Bureau Federation:
    Letter for the Record........................................   185
Watts, Kevin:
    Letter for the Record........................................   282
Weldon, Leslie:
    Opening Statement............................................   111
    Written Testimony............................................   113
Wolverton, Bill:
    Letter for the Record........................................   285
Wyden, Hon. Ron:
    Opening Statement............................................     2

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: http://www.energy.senate.gov/
public/index.cfm/hearings-and-business-meetings?ID=9FE456B6-AB07-405C-
81EE-D58980D7BE02.

 
         PENDING PUBLIC LANDS, FORESTS, AND MINING LEGISLATION

                              ----------                              


                         THURSDAY, MAY 21, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. John 
Barrasso, Chairman of the Subcommittee, presiding.

  OPENING STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM 
                            WYOMING

    Senator Barrasso. The Subcommittee will come to order.
    This is our first legislative hearing in the Public Lands, 
Forests and Mining Subcommittee this Congress. The purpose of 
today's hearing is to receive testimony on seven bills pending 
before the Subcommittee.
    Four of these bills were considered by the Subcommittee in 
the last Congress. The four bills are S. 160/H.R. 370, Senator 
Heller and Representative Hecht's bill to expedite Good 
Samaritan Search and Rescue Operations. This one is important 
to help bring closure to families of missing persons as quickly 
as possible. S. 814 and S. 815, Senator Wyden's Tribal Land 
Conveyance bills in Oregon; and, S. 1240, Senator Heinrich's 
bill to designate two new wilderness areas in the Rio Grande 
del Norte National Monument in Northern New Mexico.
    We will update the records of the four bills and allow 
members, especially those who are new to the Subcommittee, an 
opportunity to ask any questions that they might have.
    The remaining three bills are new to the Subcommittee. S. 
365, was introduced by Senator Hatch and co-sponsored by 
Senator Lee. This bill will restore grazing levels in the Grand 
Staircase Escalante National Monument and provide needed 
certainty to the family ranching operations and communities 
located there. This is one of President Clinton's Antiquity Act 
monuments which is still causing reverberations in Utah today.
    S. 472, another bill from Senator Heller, will authorize 
several land conveyances to facilitate sensible development in 
Douglas County in Nevada. The Federal Government controls over 
50 percent of the land base in this one county, so it is not 
surprising that the county has come to Congress for help.
    Finally, S. 583, Senator Risch's Sawtooth National 
Recreation Area and Jerry Peak Wilderness additions bills. 
Senator Risch will have an opportunity to speak to them 
shortly.
    First let me turn to the Ranking Member, Senator Wyden, for 
his remarks.

     STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. I just 
want to say at the outset since this is our first forestry 
hearing that I am very much looking forward to working with you 
on these issues.
    Mr. Chairman, I also see our friend and colleague from 
Idaho, Senator Risch here, and we all work together on these 
issues often.
    I can remember when I was Chairman of this Subcommittee. It 
is an important Subcommittee particularly for those of us from 
the West trying to find fresh, creative approaches to deal with 
the challenges, it is especially important to our constituents.
    Let me make a quick apology to our guests from Idaho. We 
know that it is a challenge getting back here. I apologize, I 
am busy with the Trade bill on the floor, so I am going to have 
to chase off here in a moment but look forward to working with 
you all.
    Of course, Ms. Weldon and Mr. Murphy, two professionals 
that we have worked with often and we are glad to have you 
here. Again, my apologies with respect to not being able to 
stay.
    Chairman Barrasso was kind enough to let me make some brief 
remarks with respect to two important bills from my 
constituents, Oregon tribal bills, S. 814 and 815.
    The Coos, Lower Umpqua and Siuslaw Indians and the Cow 
Creek band of Umpqua Tribe of Indians have waited a long, long 
time for these bills. I am glad that they are being heard once 
again in the Committee.
    This is the second Congress that I have introduced these 
bills individually and as part of my O and C lands legislation, 
and I hope it will finally be the end of the discussion and we 
will act on them.
    It is long past time for Congress to do the right thing and 
designate these lands as tribal lands, righting a wrong that 
happened long ago but still impacts tribal members in my state 
and across the country. Termination era policies are a shameful 
part of American history with long standing impact on the 
nation's first peoples.
    The Cow Creek and Coos Tribes were restored to Federal 
recognition in the 1980's but have yet to regain any land. 
These tribes deserve the right to exercise their tribal 
sovereignty, to grow an economy, support and protect tribal 
members, embrace and celebrate their cultural and religious 
priorities and raise new generations of tribal members who 
understand the importance of their heritage. In order to do 
that they have got to have a land base to call home.
    The two bills will convey more than 17,000 acres and more 
than 14,000 acres of land that is now managed by the Bureau of 
Land Management to the Secretary of the Interior to hold in 
trust for the Cow Creek Band of Umpqua Tribe of Indians and the 
Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians, 
respectfully.
    Both the Cow Creek and the Coos Tribes testified before the 
Subcommittee in a hearing on November 20, 2013, and they are 
going to submit written testimony today to, once again, stress 
the importance of these bills to their tribal sovereignty and 
the future of their tribal members.
    [The information referred to follows.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Wyden. So I look forward to working again with my 
colleagues, Chairman Barrasso and Senator Risch. I also see 
Senator Heinrich here. We have worked together often and well 
on these issues. I look forward to that cooperation to finally 
close the book on this and give the Coos, Lower Umpqua and 
Siuslaw Indians and the Cow Creek Band of Umpqua Tribe of 
Indians the land base they richly deserve.
    Again, Mr. Chairman, thank you and my apologies for the 
hectic nature of the next few hours. I look forward to working 
with you.
    Senator Barrasso. Thank you, Senator Wyden, for your 
efforts on this issue as well as so many that you are so 
heavily involved with in the Senate.
    Thank you.
    Senator Risch, I would like to turn to you.

   STATEMENT OF HON. JAMES E. RISCH, U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you very much.
    Senator Wyden, before you go, thank you for your work on, 
fire on Western acres. It has been a pleasure working with you 
on timber issues, and I look forward to continuing.
    Senator Wyden. Big thanks.
    Senator Risch. To the Chairman, thank you so much for 
holding this hearing.
    Senate bill 583 is a companion bill to House bill 1138. 
They are exactly and precisely the same, even in the 
punctuation in the bill.
    We have people here who are experts on this matter who are 
going to testify here today.
    What these two bills do is add additional wilderness acres 
in Idaho. This has a long history, and I cannot go any further 
without saying that Congressman Simpson is the hero on this. He 
has worked at this tirelessly. He has had to back up and retool 
and start over again, at least once that I am familiar with, 
and he has done really a magnificent job of bringing people 
together.
    This bill is truly the work of the collaboration process to 
which a lot of people in this room subscribe and with which 
they are very familiar.
    We have here from Idaho, Mr. Rick Johnson, who is head of 
the flagship, if I might say so, conservation organization in 
Idaho. I had the privilege and honor of working with Mr. 
Johnson when I was Governor as he helped me craft a roadless 
rule for the State of Idaho, not just me, but it was lots and 
lots of people that did that.
    I am always happy to brag that we have the only, not 
withstanding Colorado, with all due respect, it is not exactly 
the same, but we have virtually the only roadless rule in the 
United States that has been approved and been approved all the 
way through the Ninth Circuit Court. Our litigation is over in 
that regard. We have really put the cap on 40 some years of 
litigation and arguing, and brought some common sense and, most 
of all, some stability to the issue.
    Mr. Johnson, who has been deeply, deeply, involved in this 
particular bill, is here to help us today.
    I can say that Representative Simpson has really brought a 
consensus to this and has virtually everybody on board with all 
due respect to Ms. Stevenson, who represents the Mountain 
Bikers and who is in disagreement with the bill. However, I 
understand that her objections are the same objections that are 
in every wilderness bill. Although she will correct me I am 
sure if I am wrong on that, but that is that you cannot use the 
bicycles in the wilderness areas which is really not something 
we wanted to tackle in this bill and really should not be 
tackling in this bill.
    To my two friends from the Federal Government, I understand 
they are going to state their concerns, as they always do. The 
fact that there are 907 acres in this bill that are actually 
conveyed out of the hands of the U.S. Government. Now to put 
this in perspective, they are conveyed to public agencies to be 
used only for a public purpose since the Forest Service owns 
and controls 20 plus million acres in the State of Idaho, and 
the BLM owns and controls almost 12 million acres in the State 
of Idaho. And this bill only conveys 907 acres. I will 
apologize already that you will not see me tear up over the 
fact that this does convey 907 acres out of the hands of the 
Federal Government.
    So, with that, this is a great compromise. It is well done. 
It is something that is really in the best interest of the 
people of the State of Idaho.
    With that, thank you, Mr. Chairman, for holding the 
hearing.
    Senator Barrasso. Thank you, Senator Risch.
    Senator Heinrich, I invite you to make any comments you 
would like.

STATEMENT OF HON. MARTIN HEINRICH, U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Chairman Barrasso. I really 
want to thank you for including my bill, the Sueldos del Norte 
Conservation Act, on today's agenda.
    This is a bill that would establish two wilderness areas 
within the Rio Grande del Norte National Monument. These two 
areas were part of the original legislative proposal for this 
area that Senator Bingaman introduced in the Senate that I was 
a co-sponsor of in the House, and it really helps further the 
community vision for this landscape.
    I also want to put in a plug for Senator Risch's bill. My 
mother's side of the family is from Idaho, places like Twin 
Falls and Buhl. I have been watching this community effort for 
many, many years. I got a chance to work with Congressman 
Simpson in the House a little bit on these issues, and I think 
this is a very balanced approach. I appreciate all the work 
that has gone into it.
    Senator Risch. I appreciate that.
    Senator Barrasso. Thank you, Senator Heinrich.
    Now, I would like to ask and invite Senator Heller for any 
comments he would like to make on his legislation.

    STATEMENT OF HON. DEAN HELLER, U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you.
    I was just wondering, if there is any place Senator 
Heinrich is not from. [Laughter.]
    Senator Heller. Since he----
    Senator Heinrich. Well they did move down to----
    Senator Heller. To Fallon, Nevada.
    Senator Heinrich. To Fallon from Idaho. So. [Laughter.]
    Senator Heller. That is wonderful.
    Anyway, Mr. Chairman, thank you and Senator Wyden for 
including my bills to address a couple of very difficult public 
lands issues that Nevada is facing.
    As you know, Mr. Chairman, prompt action on these types of 
bills is extremely important and the well being of us Western 
States. So thank you very much, again, for holding this 
hearing.
    As you know, the Federal Government administers roughly 85 
percent of the land in Nevada, the highest percentage of any 
state in the nation. This presents our local and state 
governments with many unique challenges. Those communities 
often work closely with the congressional delegation to develop 
bills to improve public land management.
    Last Congress I was proud to work with Chairman Murkowski 
on the Public Lands package. It was ultimately enacted into law 
as part of the National Defense Authorization Act. The eight 
Nevada bills included in that package were the culmination of 
nearly a decade worth of work on public lands bills, and I 
appreciate the Chairman's leadership on these issues.
    I hope my two bills here before us today will be the next 
in these public lands successes.
    Douglas County Conservation Act, the first one, is a 
grassroots-driven proposal that balances the needs to spur 
economic development while preserving our state's western 
character.
    In 2009, Douglas County embarked on a long process to 
develop legislation that adjusts Federal land ownership and 
management throughout the economy. Over the course of six years 
they performed outreach activities, held a series of community 
open houses, obtained the input of stakeholder groups and 
several hundred thousand community members. Ultimately the 
Board of Commissioners unanimously approved the framework of a 
bill and requested that Congress move forward.
    As a result, Representative Amodei, Senator Reid and I 
introduced the bill in February with the support of our entire 
congressional delegation. The final product jump-starts 
economic development throughout Douglas County while ensuring 
the rural character of Carson Valley remains intact.
    Specifically, it conveys lands to local governments and the 
Washoe Tribe for important public works projects. Additionally 
it would promote conservation of riparian and the state sage 
grouse habitat along the Carson River and improve recreation 
opportunities.
    I want to particularly underscore the conveyance of flood 
control management areas and important water resource 
infrastructure parcels to Douglas County which are critical to 
the long term economic competitiveness of the region. Four 
flash flood events that occurred in July and August 2014, 
ravaged the region causing more than a $1 million worth of 
damage throughout the area. The county has started construction 
on two projects to reduce the flood risks and conducted 
additional studies to identify additional flood risks.
    Whereas out East, local governments can acquire land on 
their own to build public works projects; unfortunately out 
West, as you know as well as I do, we have to get congressional 
approval.
    These conveyances are critical to the county's long-term 
flood control and transportation planning efforts. This bill 
was developed from the bottom-up, not the top-down, the way 
public lands bills should be written. As a result, it has 
garnered nearly unanimous local support ranging from the Washoe 
Tribe to local towns and general improvement districts.
    My second bill, the Good Samaritans Search and Recovery 
Act, would solve a long-standing public safety issue on public 
lands. Congressman Joe Hecht and I first introduced this 
legislation in 2013 in response to the tragic stories of Mr. 
Keith Goldberg and Air Force Staff Sergeant Antonio Tucker. 
Both of these individuals were missing for over a year before 
volunteer, Good Samaritan rescue teams received Government 
authorization to begin searching.
    Keith Goldberg, a Las Vegas taxi cab driver disappeared on 
January 31st, 2012. He was believed to be a victim of murder, 
but the police were unable to find his remains in the Las Vegas 
desert. When new evidence pointed toward the Lake Mead 
Recreation Area, the Goldberg family reached out to a private 
search and rescue team to look for Keith. All that prevented 
the rescue team from discovering the body was the bureaucratic 
red tape of the Park Service which refused to allow them to 
search the area without a permit and a $1 million insurance 
policy. After the family spent six months finding an insurer 
and raising the money to buy the policy, Keith's body was found 
within two hours.
    Staff Sergeant Antonio Tucker's family suffered a similar 
frustrating ordeal. Staff Sergeant Tucker was stationed at 
Creech Air Force Base when he went missing on June 23rd, 2012. 
He was believed drowned.
    Like the situation with Keith Goldberg, a search team 
offered to look for Staff Sergeant Tucker but was blocked by 
the Department of the Interior. When the team finally received 
authorization to search nearly a year later, they found the 
body in two days.
    No family should have to go through what the Goldberg and 
Tucker families have had to endure. This bipartisan, common 
sense legislation that expedites access to public lands for 
search and recovery organizations has been thoroughly vetted in 
this Congress. It has had multiple hearings between the House 
and Senate, attracting no significant opposition, and last year 
it passed the House by a vote of 413 to zero. I am confident it 
can garner similar overwhelming support in the Senate, so let's 
get this done.
    Again, thank you for the opportunity, Mr. Chairman, for 
allowing me to testify today. I look forward to working 
together to move these bipartisan proposals through the U.S. 
Congress.
    Senator Barrasso. Thank you very much, Senator Heller.
    It is now time to hear from our witnesses. Ms. Leslie 
Weldon is the Deputy Chief of the U.S. Forest Service; Mr. Tim 
Murphy is the Acting Assistant Director for the Bureau of Land 
Management; Mr. Rick Johnson is the Executive Director for the 
Idaho Conservation League; and, Ms. Brett Stevenson is the 
Board of Director member for the Wood River Bicycle Coalition.
    At the end of the witness testimony, we will begin 
questions. Your full written testimony will be made part of the 
official hearing, so please keep your statements to five 
minutes so that we may have time for questions.
    We look forward to hearing your testimony beginning with 
Ms. Weldon. Would you please proceed?

   STATEMENT OF LESLIE WELDON, DEPUTY CHIEF, NATIONAL FOREST 
     SYSTEM, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Weldon. Thank you, Chairman Barrasso and members of the 
Subcommittee for the opportunity to present views of the U.S. 
Department of Agriculture regarding S. 160, the Good Samaritan 
Search and Recovery Act; S. 472, the Douglas County 
Conservation Act; and S. 583, the Sawtooth National Recreation 
Area and Jerry Peak Wilderness Additions Act.
    I'd like to begin with S. 160 which the Department supports 
with just minor technical corrections and amendments.
    One provision of S. 160 would direct the Secretary of 
Agriculture to develop and implement a process to expedite 
access to National Forest System lands for eligible 
organizations and individuals to conduct Good Samaritan search 
and recovery missions for missing individuals presumed to be 
deceased at the time the search is initiated.
    This and the desired intent of the act, which is to allow 
expedited access to Federal lands for search and recovery 
missions, are substantially consistent with current Forest 
Service policies and guidelines governing these types of 
activities and access. However, the provisions requiring 
development and implementation of a process to expedite access 
may be a bit redundant with some of the work in the process 
that we already have in place on the National Forest System.
    The Forest Service right now participates as a strong 
partner in coordination and leadership with local law 
enforcement agencies who are our lead in leading search and 
rescue and subsequent recovery missions. We value local law 
enforcement agencies and the talent and commitment they bring 
in leading these coordinated efforts. We also acknowledge the 
critical importance to family and friends of timely recovery.
    Regardless of the ultimate outcome of the congressional 
consideration of S. 160, the Forest Service is committed to 
working with all organizations and dedicated men and women who 
volunteer their time and expertise to assist in the search and 
recovery of those that are missing.
    The Douglas County Conservation Act of 2015. With that, I'd 
like to bring up just a couple of points covered in my written 
testimony.
    In general regarding land conveyances, the Department's 
interest is to see that the public is appropriately compensated 
for lands that are taken out of public ownership. In Section 
102 regarding the concessionaires at Round Hill Pines 
Management Area and Zephur Shoals Management Area, we'd like to 
continue and encourage the efforts that are happening on the 
ground now to look for solutions to ensure that we are 
providing the best public services we can through the 
concessionaires in place for these very popular recreation 
sites. We believe that locally-developed solutions would carry 
more ownership for all parties involved.
    In Section 2 or Title 2, Section 201 regarding the transfer 
of the identified NFS lands to the Department of Interior to be 
held in trust for the benefit of the Washoe Tribe, I'd like to 
add that in addition to supporting this bill, the Forest 
Service continues to work with the tribes and maintains 
communications on numerous current issues of concern to both 
parties as part of our government-to-government relationships.
    Regarding S. 583, to Senator Risch and Congressman Simpson, 
we really express our appreciation for your emphasis and focus 
for supporting this bill. As it was said earlier, it's been a 
long time in the making and we're glad to see this kind of 
progress. We'd like to echo the support from all the local 
levels involved in bringing this solution forward.
    The Department supports the bill as it applies to lands 
managed by the Forest Service, and we defer to the Department 
of Interior for matters concerning land administration by the 
BLM.
    The Department supports designation of Hemmingway, Boulder-
White Clouds and Jim A. McClure-Jerry Peak Wilderness. Most of 
the National Forest System makers that would be designated are 
already part of their respective forest plans for the area, and 
that National Forest System acres that would be designated by 
the bill, not recommended, are part of previously identified 
roadless areas.
    So we would just like to emphasize our support for this 
bill. And appreciate the efforts to continue it moving forward.
    And I'm available to take any questions that you have.
    [The prepared statement of Ms. Weldon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Ms. Weldon.
    Mr. Murphy?

    STATEMENT OF TIMOTHY MURPHY, ACTING ASSISTANT DIRECTOR, 
NATIONAL CONSERVATION LANDS & COMMUNITY PARTNERSHIPS, BUREAU OF 
        LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Murphy. Good afternoon, Mr. Chairman and Mr. Ranking 
Member and members of the Subcommittee. Thank you for the 
opportunity to discuss the seven bills being considered by the 
Committee today.
    I'm Tim Murphy, BLM State Director for Idaho and currently 
acting as the BLM's Assistant Director for National 
Conservation Lands and Community Partnerships. The BLM looks 
forward to working with the Committee to address the important 
issues raised by these bills.
    I'm accompanied by Simeon Clevenger, Acting Deputy Director 
for Emergency Services at the National Park Service. He's 
available to respond to questions related to the Park Service 
or to H.R. 373 and S. 160, the Good Samaritan Search and 
Recovery Act.
    The Department supports S. 160 and H.R. 373 with 
amendments. These bills would require the Secretary of Interior 
and Agriculture to develop and implement a process to expedite 
access to Federal lands for Good Samaritan search and rescue 
missions. We'd like to work with the Committee to amend these 
bills as outlined in the National Park Service statement for 
the record to allow expedited access for search and recovery 
missions without complicating existing procedures or causing 
unintended impacts to relationships between Federal agencies 
and search organizations.
    S. 365 directs the BLM to develop a management program to 
improve rangeland conditions and restore livestock raising to 
the level of use that existed prior to the designation of the 
Grand Staircase Escalante National Monument. The BLM supports 
the bill's goal of improving the rangeland health and 
supporting grazing within the Grand Staircase Escalante 
National Monument, and we support the use of existing 
regulations to address grazing permit renewals, but the BLM 
does not support grazing use targets that are drawn or set in 
an arbitrary number. We look forward to working with the 
sponsor on this issue.
    S. 472, the Douglas County Conservation Act, authorizes 
Federal land conveyances and sales in Douglas County, Nevada. 
It directs the Secretary of Interior to take into trust 
approximately 1,000 acres of Federal land for the benefit of 
the Washoe Tribe of Nevada and California and designates about 
12,000 acres of Burbank Canyon's wilderness. The BLM generally 
supports the goals of the bill as it pertains to BLM and we'd 
like the opportunity to work with the sponsors and Subcommittee 
to address the various issues including paleontological 
resources issues, fund management, language ensuring uniform 
appraisal standards and practice and other technical issues.
    S. 583, the Sawtooth National Recreation Area and Jerry 
Peak Wilderness Additions Act, would designate three wilderness 
areas in Central Idaho including two that would be partially 
managed by the BLM. These lands contain outstanding wildlife 
habitat and beautiful mountain terrain. The legislation also 
includes several conveyances to local government. The BLM 
supports this legislation and commends Senator Risch, 
Congressman Simpson, and the Idaho Delegation for their hard 
work over many years of this proposal. We look forward to 
continuing to work with the delegation on the proposal.
    S. 814, the Oregon Coastal Land Conveyance Act and S. 815, 
the Cow Creek Umpqua Land Conveyance Act would together provide 
roughly 32,000 acres of BLM managed lands in Western Oregon to 
be held in trust on the behalf of the Confederated Tribes of 
Coos, Lower Umpqua and Siuslaw Indians and the Cow Creek Band 
of the Umpqua Tribe of Indians. The BLM welcomes the 
opportunity to work with Congress on the transfer of lands into 
trust status and supports the goals of S. 814 and S. 815. We'd 
like the opportunity to work with the sponsor and the Committee 
to address various issues with the bill.
    S. 1240, the Cerros del Norte Conservation Act would 
designate two new wilderness areas, about 21,000 acres within 
the Rio Grande del Norte National Monument in New Mexico. These 
new wilderness areas would protect the Ute Mountain, a 
centerpiece within the monument that's home to elk and other 
wildlife and the Rio San Antonio which contains a rugged gorge 
that offers opportunities for solitude. The BLM appreciates the 
sponsor's work on this legislation and supports the bill.
    In conclusion, thank you again for the opportunity to be 
here today to discuss these seven bills. I'd be glad to answer 
any questions that you may have.
    [The prepared statement of Mr. Murphy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Mr. Murphy.
    Mr. Johnson?

     STATEMENT OF RICK JOHNSON, EXECUTIVE DIRECTOR, IDAHO 
                      CONSERVATION LEAGUE

    Mr. Johnson. I am Rick Johnson. I'm the Executive Director 
of the Idaho Conservation League. I'm here to speak to S. 583.
    Our organization has supported wilderness protection for 
the Boulder-White Clouds since our founding 40 years ago. The 
Boulder and White Cloud Mountains are a crown jewel of Idaho 
and deserve permanent protection, and we have been here before 
to talk about this.
    In June 2010 when I appeared at this table, Senator Risch 
along with the entire Idaho delegation had just introduced a 
version of this bill. During the hearing Senator Risch 
expressed reservations. He told us that the bill needed more 
compromise. There has now been more compromise, and there is 
now much more support.
    Once again, respectful of compromise, respectful of the 
legislative process, I am here to speak in support of this 
bill.
    The Idaho Conservation League has worked with 
Representative Mike Simpson for well over a decade on this 
legislation. We worked with Senators Jim Risch and Mike Crapo 
for a long time on this too. While we all get points for 
persistence, this is not about us. This is about the future of 
the Boulder and White Cloud Mountains. This is a very special 
place. These mountain ranges contain the headwaters of four 
major rivers and are home to some of the highest elevation 
salmon habitat on Earth.
    This is a landscape of summer and winter range for big game 
and critical habitat for endangered and allusive species like 
wolverine. It is also an unparalleled resource for many 
different recreational pursuits. The wild heart of the Boulder-
White Clouds deserves the highest protection possible, and 
wilderness designation provides that.
    It would also create the first designated wilderness in the 
Wood River Valley, a community that supports strong land 
protection and has long been supportive of this effort.
    It is time to get the job done. One way or another 
prospects for protecting the Boulder-White Clouds have never 
been better. Many believe a bill written by the Idaho 
Delegation is the best path. I asked the delegation who else is 
on board? Their response is much different than it was five 
years ago. The support today is remarkable.
    The Idaho Outfitters and Guides Association is supportive. 
Local ranchers are supportive. The Idaho Cattle Association and 
the Idaho Farm Bureau, never wilderness advocates, have 
indicated they will not stand in the way. Idaho water users are 
supporters of the water protections. The Sawtooth Society is 
supportive as is the Custer County Commission. The Idaho 
Recreation Council represents motorized trail bikes and 
snowmobile users and they are not opposed. And many 
conservationists support this bill including the Idaho 
Conservation League, who I represent, the Wilderness Society 
and the Pew Charitable Trust. We have also heard from 
individual mountain bikers who support, if not formal 
organizations. The biking groups would like access to all 
groups, and I sympathize and recognize that compromise is hard.
    Compromise has been hard for our interests as well. If the 
bill passes there will, regretfully, be 57,000 fewer acres as 
wilderness than in the previous version of this bill. There are 
significant parts of the Boulder-White Clouds that are not 
included here that we always assumed would be ultimately 
protected. No one suggests this bill is perfect. It is not how 
I would have written it, but Senator Jim Risch and 
Representative Mike Simpson have long demonstrated that in 
order to govern, we cannot let the perfect be the enemy of the 
good.
    There has never been such broad consensus around 
legislation for the Boulder-White Clouds. As we all know, there 
are other options for protection being discussed. This hearing 
is an important step, and I applaud Senator Risch and the 
Committee for holding this hearing. I know it took a lot of 
work and I appreciate that. There are many more steps ahead, 
however. The road is long, and the time is very short. One way 
or another, it's time to permanently protect this landscape and 
this bill would do that.
    Thank you for the opportunity to be here today. I look 
forward to questions.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Mr. Johnson.
    Ms. Stevenson?

 STATEMENT OF BRETT STEVENSON, BOARD OF DIRECTORS, WOOD RIVER 
                       BICYCLE COALITION

    Ms. Stevenson. Thank you, Chairman Barrasso and 
distinguished members of the Committee for the opportunity to 
weigh in on S. 583. It is an honor and privilege to provide 
local perspective on issues that are critical to our quality of 
life and local economy.
    My name is Brett Stevenson, and I am a native of Idaho. My 
parents left their careers in San Francisco before I was born 
in search of something new, fresh and wholesome. They 
discovered the Wood River Valley.
    They bought land and started farming. We have become 
MillerCoors' Showcase Barley Farm, a distinction earned by, 
among other things, making irrigation adjustments to save over 
150,000,000 gallons of water annually and consistently growing 
excellent barley.
    After school I returned home to be a land-use planner for 
Blaine County. Five years later I went to work with Rick 
Johnson at the Idaho Conservation League. In 2012, I left ICL 
to help on the family ranch where it's all hands on deck to try 
to improve water management in our depleted basin.
    Connections to the land and the community are what make the 
Wood River Valley more than just where we live. It's where we 
thrive.
    Today I'm speaking on behalf of the Wood River Bicycle 
Coalition, a chapter of the International Mountain Bicycling 
Association (IMBA). We applaud Senator Risch and Congressman 
Simpson for their work on this issue, so it is with some 
disappointment that we find ourselves in opposition to this 
proposed legislation.
    The Bike Coalition and IMBA support enhanced protection of 
the Boulder-White Clouds and Jerry Peak areas; however, in this 
case we do not believe that wilderness is the most appropriate 
solution. The Boulder-White Clouds play a critical role between 
the Sun Valley Resort and the Sawtooth Frank Church River of No 
Return Wilderness Areas. It completes the full spectrum of the 
areas draw attracting recreationalists of all kinds which is 
critical to our tourism-based economy.
    Biking contributed $33,000,000 to our local economy in a 
single season. Closing these marquee trails to biking closes a 
crucial marketing element to the local economy. Our local 
businesses support protection coupled with continued bicycle 
access.
    Many Americans live in urban settings with limited outdoor 
recreational experiences, yet we're all aware of the 
transformative and beneficial effects of adventures in the 
natural, rugged environments. These experiences provide 
rejuvenation, inspiration and perspective. In short, they make 
us better people.
    The trend away from active recreation is concerning; 
however, one bright spot is bikes. The Outdoor Industry 
Association reports bicycling is the top outdoor activity for 
youth.
    The growth in the National Interscholastic Cycling 
Association, including the brand new Idaho league, demonstrates 
this trend in youth involvement. Backcountry rides like Ants 
Basin and Castle Divide develop determination, confidence, and 
ultimately an appreciation for the natural world and our place 
in it. These aspirational experiences are invaluable and 
irreplaceable and should be encouraged not taken away.
    Select mountain biking trails in the Boulder-White Clouds 
and Jerry Peak area are vastly unique from front country or 
urban biking experiences. Riding here is the only big 
backcountry opportunity for mountain bikers in the entire 
region. It is truly like nothing else.
    We appreciate the permitive use only experiences in the 
nearby Sawtooth and Frank Church Wilderness Areas. Trail impact 
from horses, pack trains and backpackers are similar to, and 
can even be greater than, those of bicyclists. So while this 
bill has accommodated motorized vehicles, Heli-skiing and 
snowmobiles, no consideration has been given to the continued 
use of marquee trails that our community cares so deeply about.
    A wilderness designation eliminates the only backcountry 
bike experience in the area and it also tells bikers and local 
businesses the Idaho Delegation does not consider bicycle 
experience and their contribution to the local economy worth 
protecting.
    This bill does not feel like an Idaho solution. It is not 
reflective of what our community wants. For the most part, we 
want this special place to stay just how it is today.
    In order to achieve that, some level of added protection or 
designation may be necessary but it should be a designation 
that preserves the ecological value and the recreational value, 
particularly when the two are not mutually exclusive.
    The Wilderness Act is a good tool for the protection of 
landscape, habitat and natural splendor; however, it is one 
tool in the legislative tool box. In this case we must ask 
ourselves what is the objective of a new designation, and is 
this bill achieving those goals or is it simply a feather in 
someone's hat?
    Solutions can be crafted using existing policy. Using a 
one-size-fits-all approach at the cost of valued, low-impact, 
recreational opportunities is a disservice to our community and 
future generations.
    The Wood River Bike Coalition and IMBA welcome the 
opportunity to join with other stakeholders and the Idaho 
Delegation to protect these treasured landscapes and the 
recreational experiences they provide. We ask the Committee to 
send this bill back to the delegation for further discussion 
and collaboration.
    Thank you.
    [The prepared statement of Ms. Stevenson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Ms. Stevenson.
    Thank you all for your testimony.
    Before we get to the questions, I would like to invite 
Senator Lee to make comments about his piece of legislation.

       STATEMENT OF HON. MIKE LEE, U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Chairman Barrasso.
    Thanks to all of you for being here today and for the 
insight you have given us.
    The farm and agriculture industry is an essential pillar of 
my state's economy. According to Utah State University 
researchers, the Utah food and agriculture industry makes up 
more than 14 percent of the state's GDP and provides some 
80,000 jobs. This tremendous output results in an economic 
impact totaling $17.5 billion every year.
    Much of Utah's farm industry consists of or relies in one 
way or another on livestock grazing. With more than 25 of the 
state's 29 counties reporting livestock as the dominant 
agricultural sector, livestock represents the single largest 
sector of farm income in Utah.
    Unfortunately, due to restrictions on Federal lands, it is 
increasingly difficult for Utah's ranchers to continue their 
way of life. Utah has 45,000,000 acres classified as rangeland. 
Of that, 33,000,000 acres are owned and controlled by Federal 
land management agencies. Only 8,000,000 acres of Utah's 
rangelands are privately-owned.
    This reality means that Utah's ranchers often find 
themselves at the mercy of Federal employees, Federal policies 
and administrative decisions influenced by outside interests 
groups who have worked to eliminate all grazing on Federally-
administered lands for the past 30 years or more. Being 
dependent on the whims of Washington has not worked out well 
for Utah's ranchers. Since the late 1940's, BLM and the Forest 
Service have cut or suspended nearly 75 percent of Utah's total 
livestock grazing animal unit months, or AUMs, across the Utah 
landscape, from 5.4 million AUMs in 1949 to just over 2 million 
in 2012.
    Using the Antiquities Act on September 18th, 1996, 
President Clinton issued a proclamation creating the Grand 
Staircase Escalante National Monument with 1.9 million acres of 
Federal land. At the time this designation occurred, the Grand 
Staircase Escalante National Monument was the largest 
Presidentially-created monument outside of Alaska. While using 
the Antiquities Act to further limit activity on another 2 
million acres of Utah land was wholly inappropriate, at least 
President Clinton, at the time, looked to enshrine existing 
grazing rights.
    To this end, to his credit, President Clinton's 
Presidential Proclamation and monument management plan stated 
as follows, ``Nothing in this proclamation shall be deemed to 
affect existing permits or leases for or levels of livestock 
grazing on Federal lands within the monument. Existing grazing 
uses shall continue to be governed by applicable laws and 
regulations other than this proclamation.''
    And yet, since President Clinton issued this proclamation, 
nearly 28 percent of the 106,202 livestock grazing AUMs have 
been suspended. Furthermore, BLM is currently in the process of 
amending its management plan for the monument and is 
considering several options that would either decrease or 
eliminate grazing all together. Additionally, the Grand 
Staircase Escalante National Monument designation under the 
Antiquities Act means that BLM's priorities are not focused on 
improving rangeland conditions for wildlife.
    In concert with Senator Hatch, I have introduced S. 365 
which directs BLM to implement a program to improve rangeland 
conditions for wildlife and livestock carrying capacity in 
those areas and to restore livestock grazing to the level of 
usage in those areas that existed before the monument was 
designated as a monument. This legislation represents an 
opportunity for a rare win/win and will result in improved 
rangeland and sustainable growth for Utah's ranchers.
    If this measure is signed into law, BLM will focus on 
preserving the Grand Staircase Escalante National Monument's 
rangeland by, perhaps, using controlled burns to destroy weeds 
or by removing Pinion and Juniper trees. Restoring forage 
through the improvement of rangeland conditions will allow the 
Grand Staircase Escalante to sustain grazing levels prior to 
its designation as a monument. Healthier rangeland will 
preserve the grazing rights Kane and Garfield County's ranchers 
have used for generations. Improper management of Grand 
Staircase Escalante not only damages the monument but it also 
harms the people that depend on its forage.
    Because S. 365 is a common sense solution, it is no 
surprise that it has received broad support from Utah's 
agriculture and farming industry, the Public Lands Council, 
National Cattlemen's Beef Association, Utah Cattlemen's 
Association, Utah Wool Growers Association and the Utah Farm 
Bureau Federation. They have all endorsed S. 365, and I'd like 
to submit their endorsement letters for the record.
    Senator Barrasso. Without objection.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Again, I would like to thank the Committee for 
holding a hearing on S. 365 and focusing on a broad array of 
issues affecting public lands.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Lee.
    Now we will begin with questions starting with Senator 
Risch.
    Senator Risch. Thank you very much, Mr. Chairman.
    Ms. Stevenson, I am going to start with you, and I want to 
be fair on this. You have heard all the people that support 
this bill. We tried to find a balance and bring in people who 
opposed this legislation, and we were not able to find anyone 
except you. Do you have anybody else that you want to speak up 
for here in opposition to this?
    Ms. Stevenson. Yes. I feel like the past several years of 
collaboration actually are not reflected in this bill. There 
have been a lot of meetings, formal public meetings, and a lot 
of informal meetings. And out of those meetings I think you're 
well aware of the memorandum of understanding between the 
Wilderness Society, Idaho Conservation League, IMBA and the 
Bike Coalition that supports a different avenue, a more 
flexible approach, to achieving the conservation objectives 
that you guys have set out to achieve.
    Also, the city of Ketchum has a resolution that is 
supportive of an alternative of national monument that supports 
recreation. The city of Ketchum is very aware of the value that 
recreation has in local economy and to our local community.
    Blaine County has a similar resolution.
    Additionally, I think we've submitted to you a business 
letter of support asking for a national monument and protecting 
continued mountain biking access. That letter generated around 
60 businesses signing on to that within a week's time. In a 
town of 5,000 people I think that's pretty significant.
    Additionally there is a petition that's circulating online 
asking for support for the national monument. And again, as an 
alternative to wilderness, a more flexible one that would 
support continued bike access. That has gone nationally with 
around, I think, 100,000 signatures and 14,000 of those are 
from Idaho.
    So I don't think it's just me. [Laughter.]
    Ms. Stevenson. Thank you.
    Senator Risch. Well the issue would be that there have been 
people who have taken both positions as far as a monument or a 
bill is concerned, and the testimony here from Mr. Johnson 
lists 25 or 26 of the most diverse groups that there are that 
support this bill.
    The Association of Western Pulp and Paper Workers, Blaine 
County, Boulder-White Clouds' Council, City of Bellevue, City 
of Sun Valley City Council, City of Haley, City Council of the 
City of Ketchum, City Council of the City of Stanley, Camping 
for America's Wilderness, Custer County, Idaho AFL-CIO, the 
National Public Lands Grazing Campaign, a really, really 
diverse group of organizations.
    In addition to that, we have received letters of support on 
the bill from the Idaho Cattle Association, the Idaho Farm 
Bureau, and the East Fork Ranchers. So I appreciate your focus 
on the bicycle situation. As Mr. Johnson pointed out, 
compromise is hard.
    And as I understand it, also in Mr. Johnson's testimony, he 
lists 25 or 26 trails and roads that are going to remain open 
that would not have, under the previous proposals that were 
here. And those include Frog Lake Loop, Trail Loop 047 and 686, 
Germania Trail 111, Grand Prize Trail 112, Washington Basin 
Road 197, and it goes on and on.
    Ms. Stevenson. Yes.
    Senator Risch. So there was compromise in this bill. Would 
you go so far as to agree to that?
    Ms. Stevenson. Well, I would not disagree, I guess. Our 
point is that this bill does close around a dozen trails. We're 
asking for four, and those have not been considered. And I 
think the long list of supporters that you were echoing, I 
don't know if any of them would object to accommodations made 
to a couple additional trails. And I feel like the support for 
continued access on those trails is vast.
    And I don't mean to be suggesting that a national monument 
is the only way to do it. I think there are modifications to 
this bill that could accommodate these goals. You could have a 
non-wilderness corridors or you could do it through a language 
based exceptions within the bill. There are also other options 
like the Wild and Scenic River Act using that model to apply it 
to a land designation.
    So I feel like there are other tools that could 
accommodate, to a farther degree, that could accommodate 
mountain biking interests.
    Senator Risch. Ms. Stevenson, you have made your case here, 
and you have all the way through. I promise public hearings 
mean something.
    Ms. Stevenson. Thank you.
    Senator Risch. What you have just put out I will shop 
again.
    Ms. Stevenson. Thank you.
    Senator Risch. But I have to tell you I am not going to let 
that stand in the way of passing the bill with all the support 
that we have for it. I know you are sincere about this, and I 
know you are proceeding in good faith.
    I think there has been a lot of accommodation in here but 
not as much as you wanted. I understand that. But in the give 
and take process, you never get 100 percent of what you want.
    So with that, I see my time is up and then some. I guess we 
will do a second round in a minute, I hope.
    Senator Barrasso. Thank you, Senator Risch.
    Senator Heinrich?
    Senator Heinrich. Thank you.
    I actually want to ask a quick question, Mr. Murphy, on S. 
365. Shouldn't rangeland condition dictate what your grazing 
levels are?
    Mr. Murphy. Senator, I can qualify an answer to that is 
yes.
    Rangeland management is a data-based undertaking. The Grand 
Staircase Escalante is working under rangeland guidance under a 
land-use plan that's some 35 years old.
    Senator Heinrich. So let's make sure I understand this. Is 
the reductions in grazing levels that we have seen in Grand 
Staircase, have they been driven by the monument designation or 
were they driven by resource issues regarding drought, riparian 
areas, those kinds of things?
    Mr. Murphy. Since the monument designation, I'm not aware 
of any reductions. Average use since 1996 has been 
approximately 55 percent of permitted use.
    Now that actual use is from the rangeland operators. 
Ranchers look at market conditions, vegetative conditions, 
drought. So those are permittees making those adjustments year 
to year.
    Senator Heinrich. If we were to mandate levels, would we be 
potentially locking in levels above what could be sustained in 
drought years?
    Mr. Murphy. In renewing grazing permits has a data-driven 
process now there's the grazing riders that we have used.
    Senator Heinrich. Yes.
    Mr. Murphy. We're seeking to amend the monument plan and 
we're doing that now. That will provide a basis or a framework 
for activity plan work such as using the National Environmental 
Policy Act, a data-driven process, to renew grazing permits.
    Senator Heinrich. Okay.
    Shifting gears to another national monument, the Rio Grande 
del Norte, which I believe has almost the exact same grazing 
language.
    One group that I hear from again and again in support of 
both the monument designation and the current bill as well has 
been local business owners that have seen, at least 
anecdotally, increases in visitation to the area. Is the BLM 
seeing more visitors to the area in the first couple of years 
since the monument designation?
    Mr. Murphy. In preparing for this hearing the information 
that I gathered is that there's been a 40 percent increase in 
visitation to the Taos area based on the monument designation, 
a 30 percent increase in lodging taxes. Folks coming in are 
procuring guide services, buying outdoor equipment, clothing 
and so forth and generally bolstering the economics of the Taos 
area based on their visitation to the monument.
    Senator Heinrich. One last point I will make, just because 
it has been a little bit of a confusing factor in the past, is 
the Rio Grande del Norte National Monument. By virtue of the 
fact that it was a National Conservation Lands designation 
within the Bureau of Land Management, hunting is one of the 
allowed uses as well as fishing. In fact, a buddy of mine last 
year took a monster elk out of the monument. I was jealous. It 
was bigger than the elk I got last fall.
    But I just wanted to put that on the table because it has 
been one of the questions we have received time and again is 
would hunting continue in both the wilderness portions of the 
monument and the monument broadly?
    Mr. Murphy. Hunting would continue and I know that area 
somewhat, in fact family lives in that area. I haven't hunted 
it like you have, but I've seen the elk and I know it's a big 
draw for people locally as well as tourism that will continue.
    Senator Heinrich. Great.
    Thank you very much.
    Senator Barrasso. Thank you, Senator Heinrich.
    Ms. Stevenson, I tend to agree with the statement when you 
say in your testimony that the wilderness is a single tool in 
the legislative toolbox and that there is a lot of space 
between wilderness and multiple use management.
    I do not see establishing a national monument by 
Presidential proclamation as the solution. Much of the area 
that is the subject of this bill is already in a national 
recreation area. Adding additional management layers on top of 
that does not seem like a good idea to me. Continuing 
wilderness study areas or recommended wilderness areas is not a 
solution either, they de facto become wilderness areas.
    So it seems that maybe the real problem you have here is 
that mountain biking is a prohibited activity under the 
Wilderness Act. So I just wonder would amending the Wilderness 
Act to allow for mechanized travel solve the problem?
    Ms. Stevenson. I suppose that would solve the problem, but 
I'm not here today to advocate for that.
    Senator Barrasso. Okay.
    The next question is for Mr. Johnson.
    You spent over a decade working on designating wilderness 
in the Boulder-White Clouds region. You have also teamed up 
more recently with Ms. Stevenson and other stakeholders to ask 
the President to exercise his Antiquity Act's authority to 
proclaim a national monument for the whole area, about 600,000 
plus acres.
    So at the end of the day, what does your organization want? 
Wilderness or a national monument?
    Mr. Johnson. Well, at the end of the day what we want to 
see happen is whatever we can get done. To be honest, after 
this many years, I first came to Washington, DC 30 years ago.
    Senator Barrasso. But before any of us.
    Mr. Johnson. Right. Right.
    To speak to these issues and the fact is we've not been 
able to bring the consensus together to get a bill passed in 
all that time. For a number of reasons, legislation is the 
right path to go. For a number of reasons, wilderness is the 
right path to go. It is a higher standard of protection, and 
it's one that we have advocated as an organization and as a 
conservation community for, literally, generations.
    The monument is a good tool, but it is one that has 
political cost. There's no question. An Idaho solution is an 
Idaho solution, one supported by the majority party of our 
state and the delegation certainly is going to have the certain 
political resonance that something from the Administration 
probably is not. I would also add that there's a certainty of 
management that hits the ground on day one with wilderness 
designation. It is a clear. You said it is a single tool. It is 
a very effective tool to protect land. The management of a 
monument is a little more complicated. But in the end also 
there's the legislative history. There's been the discussions 
about protection of this landscape as wilderness for 
generations at this point. And we're really encouraged that we 
might have the opportunity to finally get the job done.
    Senator Barrasso. Thank you.
    Is it fair to say then that you would be satisfied if 
Congress designates these areas as wilderness and would oppose 
the monument idea and get others to do the same?
    Mr. Johnson. If the bill passes, absolutely. I think we 
have done the job if the bill passes.
    Senator Barrasso. Thank you.
    Mr. Johnson. However, if the bill doesn't pass--you got it.
    Senator Barrasso. Mr. Murphy, with regard to Senator Lee 
and Senator Hatch's bill, I want to understand this correctly. 
As I read your testimony, the BLM is telling the Subcommittee 
it intentionally punted the decision-making livestock grazing 
in the monument in 1999 when the agency adopted its resource 
management plan. Now here we are 16 years later, and it wants 
to put a framework in place through transparent public 
processes. You have been managing grazing using the 35-year old 
framework plans all the time.
    It just seems in your testimony you say you do not support 
managing graze lands according to arbitrary targets of use. 
Then you say, overall permitted use is at roughly the same 
level as it has been since the early 90's and that you have 
renewed all expiring livestock grazing permits, leases on the 
monument.
    If this is all true, I am just not sure why you call the 
grazing levels in the bill arbitrary since it is what you are 
claiming the BLM has already done.
    Can you provide some assurances that BLM will not reduce 
grazing levels on the monument through the Livestock Grazing 
Management Plan amendment that you are currently preparing?
    Mr. Murphy. Senator, thank you for the question.
    When the monument plan was initiated, grazing direction, 
grazing planning was part of that. The issues became 
significant and the grazing component of that plan was tabled. 
So at that time when the plan was completed, there was not 
land-use level direction for grazing.
    Some years later an amendment was initiated to readdress 
the grazing. After a few years, it was found that the public 
scoping period was wholly inadequate and that was then set 
aside, that amendment process. It took some years to garner 
support for renewing the land-use planning effort to bring 
grazing direction in line with other resource decisions, and in 
2012 and 2013 public scoping has begun. And we're in that 
process now of addressing grazing management, providing 
direction for grazing, integrated with other resources.
    Senator Barrasso. You talk about providing direction, and I 
think people want to see some certainty. If you oppose setting 
grazing levels like S. 365 would do, what will the BLM do to 
provide some certainty to the ranching industry and community 
that are affected by this, that grazing will actually continue 
at current levels?
    Mr. Murphy. With the completion of the amendment that's 
underway, it'll provide the framework for the basis for 
activity plan levels, that will provide the framework for NEPA 
for grazing permit renewals and those renewals will be based on 
a data-driven process, vegetation, soil, water, air.
    When I spoke about the arbitrary number, that has to do 
with going back to a period of time, 1996 or any date, and 
trying to match that date, the data-driven process will arrive 
at a level of grazing management that can be supported and 
integrated with other resources.
    Senator Barrasso. Thank you.
    Ms. Weldon, in your testimony on S. 472, Senator Heller's 
Douglas County bill, you expressed concerns with language that 
you say limits the ability of the President to develop new 
water facilities that are deemed in the national interest in 
any present or future designated wilderness, and you reiterate 
this concern in your testimony on Senator Risch's bill. Can you 
elaborate on the basis of your concern with this language, and 
do you have any examples of the President using that authority 
or what might necessitate the use of that authority?
    Ms. Weldon. Thanks for your question.
    I don't have any examples because I don't think this 
provision has been put into use with any wilderness that have 
been designated based on our research.
    What we're simply doing is affirming the language that is 
in the current Wilderness Act of 1964 that states that the 
President may authorize and maintain if it's viewed that those 
new facilities are in the interest of the public. So it's 
affirming what's in the Wilderness Act.
    Senator Barrasso. Thank you.
    We will go to a second round of questions. Senator Risch?
    Senator Risch. Thank you, Mr. Chairman.
    I will try to be brief here.
    Rick, one of the biggest criticisms that we have, as the 
delegation, have heard in Idaho regarding monument verses 
statute is the uncertainty that the monument brings and the 
struggle that it is going to take to get it up and running 
whereas the bill provides very clear certainty, at least in 
most circumstances. What are your thoughts on that?
    Mr. Johnson. Well, there's little doubt that the bill would 
provide certainty from day one. That's crystal clear.
    I would like to just caution, however, that I think that a 
monument process such as not unlike the one that has been 
underway driven by our organization and in a very broad 
coalition. We're reaching out and talking to everybody. We've 
done visits with the ranchers and recreation interests. We're 
talking to everybody we can possibly meet with. To be honest, 
parenthetically, it made me appreciate your job a lot more. You 
know, we're the ones actually in the center of the focus.
    When a monument is designated, it is based upon a set of 
objects and it is based upon a map that is, presumably, built 
around the justification. We cannot speak for the White House 
or the Administration by any means, but we believe that they 
would take the good work that has been done by the coalition on 
the ground to build something that reflects Idaho values and we 
would hope that and expect that that would happen. We cannot 
guarantee that would happen, but we would hope and expect.
    Senator Risch. Sure.
    Your continued preference is for the legislation at this 
point, is that correct?
    Mr. Johnson. Correct.
    Senator Risch. Second, you were chosen to testify in favor 
of this, and as a result of that, are representing lots and 
lots of different and varied groups and some groups you are not 
used to representing, I might add.
    Since you have that responsibility----
    Mr. Johnson. And they're probably uncomfortable with it 
too, but. [Laughter.]
    Senator Risch. You said that, I did not. In any event, the 
numbers are really impressive, the number of groups and the 
wide diversity. But having said that, do you have anything else 
you want to add? Your time was limited at the beginning, in 
adding to your testimony as far as what your thoughts, or these 
other groups' thoughts, are on the bill?
    Mr. Johnson. Well, I think that I would just say that this 
is an extraordinary place. And while we are far, thousands of 
miles from home, it is important to recognize that spring is 
coming in the Boulder-White Clouds, the mountain goats are out 
there, the herds of migrating elk, the Pronghorn, the salmon 
and steelhead in the rivers and streams. It's an extraordinary 
place.
    And one of the things that I think is clear is people care 
about it deeply for many different respects. It's a large 
landscape, has a lot of diverse opportunities to use it. This 
bill takes into consideration as much as it possibly can, the 
diversity of uses and the diversity of habitats in a future 
that really protects this grand part of Idaho.
    I would just close by saying it really deserves it. It is 
not about us. It's not about, you know, as Mr. Simpson has 
said, it's not even about ten years from now. It's about a 
hundred years from now. Will the resources that are found there 
today be there for future generations? And I think this bill is 
an extraordinary effort to bring people together.
    Senator Risch. Thank you.
    I think that regardless of where people are on this issue 
there is not anyone who would disagree with the word that you 
just uttered in that regard. This is one of the most remarkable 
places in the world. You can travel all over the world, but you 
would always remember your trip to the Boulder-White Clouds. It 
is truly unique.
    Tim, finish up your work here and get back to Idaho. We 
have a little sage grouse problem you may have heard of and we 
need your help on that.
    For those of you who are interested in looking to the 
future, here in the audience today we have people representing 
the Scotchman's Peak area of North Idaho, another, probably the 
next candidate in Idaho. It may be in my fourth or fifth term 
in this job, I do not know. I hope you do not have to wait that 
long, but there is no doubt that there will be a movement. I 
want to complement them right now. They have seen and picked up 
on the collaborative method by which these public lands issues 
have been resolved in Idaho. They have been moving forward in 
that regard. They have been making substantial progress, and 
indeed have an impressive list of people who are supporting 
their work in that regard. So this Committee will, in all 
likelihood, in the future be seeing them. Is that okay with 
you, Rick?
    Mr. Johnson. I'm all in. [Laughter.]
    Senator Risch. Thank you.
    Mr. Chairman, thank you so much for your time. Thank you 
for holding the hearing.
    Senator Barrasso. Thank you, Senator Risch.
    Senator Heinrich, second round of questions? No?
    Hearing no other questions, members may also submit 
followup written questions for the record. The record will be 
open for the next two weeks.
    Senator Barrasso. I want to thank all of you for being here 
today, for your time and your testimony.
    The hearing is adjourned.
    [Whereupon, at 3:35 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
